HHS/OIG, Audit -"Review of Epogen Internal Control Procedures at Fresenius Massachusetts Providers for Calendar Year 1999,"(A-01-01-00510)
Department of Health
and Human Services
"Review of Epogen Internal Control Procedures at Fresenius Massachusetts Providers for Calendar Year 1999," (A-01-01-00510)
August 5, 2002
Complete
Text of Report is available in PDF format (731 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if Massachusetts Fresenius providers have established adequate internal
controls and procedures to ensure that claims for EPOGEN (EPO) are supported and billed in accordance with Medicare rules
and regulations.  Based on a random sample of 200 claims valued at $249,528, we did identify portions of 23 claims
totaling $3,585 not eligible for Medicare reimbursement.  In addition, we addressed our concerns with respect to the
use of EPO protocols as standing physician orders and with physicians not signing off EPO dosage changes.  We recommended
that Fresenius (1) strengthen their internal controls and procedures to ensure that the claims submitted for EPO are supported
and billed in accordance with Medicare rules and regulations, and (2) resolve with the Centers for Medicare and Medicaid
Services and the Associated Hospital Service as to what physician documentation is required when using a protocol containing
an algorithm as a standing physician order for a nurse to administer EPO.